1

No. 20-669

In the
Supreme Court of the United States
BILLY JOHN BELL,

Petitioner,
v.
THE STATE OF TEXAS,

Respondent.
ON PETITION FOR WRIT OF CERTIORARI
TO THE COURT OF APPEALS FOR THE SIXTH JUDICIAL DISTRICT OF
TEXAS, AT TEXARKANA

BRIEF IN OPPOSITION TO
PETITION FOR WRIT OF CERTIORARI

Jeffrey W. Shell, Attorney Pro Tem
Rockwall County District Attorney Ofc.
Rockwall County Courthouse
1111 E. Yellowjacket Lane, Suite 201
Rockwall, TX 75087-4901
(214) 244-8480
jshell@rockwallcountytexas.com
jws0566@yahoo.com
COUNSEL OF RECORD

February 10, 2021

Gary D. Young, County-District Atty.
Lamar County-District Attorney’s Ofc.
Lamar County Courthouse
119 North Main Street
Paris, TX 75460
(903) 737-2458
gyoung@co.lamar.tx.us

2

QUESTION PRESENTED
THE FACTUAL CIRCUMSTANCES OF BELL’S CASE DO NOT INVOLVE
“MATERIALLY EXCULPATORY” EVIDENCE UNDER BRADY AND DO NOT
JUSTIFY A DEPARTURE FROM THE DEFENDANT’S BURDEN OF SHOWING
BAD FAITH UNDER FISHER, YOUNGBLOOD OR TROMBETTA BECAUSE THE
DISPUTED EVIDENCE WAS, AT BEST, “POTENTIALLY USEFUL” AND THE
TEXAS APPELLATE COURT REASONABLY CONCLUDED THAT THERE WAS
NO FINDING IN THE TRIAL COURT, AND NO EVIDENCE IN THIS APPELLATE
RECORD, THAT THE GOVERNMENT WAS AWARE OF THE CONTENTS OF THE
DISPUTED EVIDENCE (CPS RECORDS) BEFORE THEY WERE DESTROYED,
OR THAT ANY EXCULPATORY VALUE OF THE RECORDS WAS APPARENT
BEFORE THEY WERE DESTROYED UNDER A DOCUMENT RETENTION
SCHEDULE.

3

TABLE OF CONTENTS
PAGE:
QUESTION PRESENTED . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .

2

TABLE OF CONTENTS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .

3

TABLE OF AUTHORITIES . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .

4

INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .

5

STATEMENT OF THE CASE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .

5

REASONS TO DENY THE PETITION . . . . . . . . . . . . . . . . . . . . . . . . . . .

6

THE FACTUAL CIRCUMSTANCES OF BELL’S CASE DO NOT
INVOLVE “MATERIALLY EXCULPATORY” EVIDENCE
UNDER BRADY AND DO NOT JUSTIFY A DEPARTURE
FROM THE DEFENDANT’S BURDEN OF SHOWING BAD
FAITH UNDER FISHER, YOUNGBLOOD OR TROMBETTA
BECAUSE THE DISPUTED EVIDENCE WAS, AT BEST,
“POTENTIALLY USEFUL” AND THE TEXAS APPELLATE
COURT REASONABLY CONCLUDED THAT THERE WAS NO
FINDING IN THE TRIAL COURT, AND NO EVIDENCE IN
THIS APPELLATE RECORD, THAT THE GOVERNMENT WAS
AWARE OF THE CONTENTS OF THE DISPUTED EVIDENCE
(CPS RECORDS) BEFORE THEY WERE DESTROYED, OR
THAT ANY EXCULPATORY VALUE OF THE RECORDS WAS
APPARENT BEFORE THEY WERE DESTROYED UNDER A
DOCUMENT RETENTION SCHEDULE.
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .

11

4

CASES

TABLE OF AUTHORITIES

Arizona v. Youngblood,

488 U.S. 51, 102 L.Ed.2d 281,
109 S.Ct. 333 (1988) . . . . . . . . . . . . . . . . . . . . . . . . . .

PAGE
passim

Brady v. Maryland,

373 U.S. 83, 87, 83 S.Ct. 1194, 10 L.Ed2nd
215 (1963) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .

5, 6, 7, 9

California v. Trombetta,

467 U.S. 479, 104 S.Ct. 2528,
81 L.Ed 2d 413 (1984) . . . . . . . . . . . . . . . . . . . . . . . . .

Ex Parte Napper,

322 S.W.3d 202, 230 (Tex. Crim. App. 2010) . . . . . . .

passim
8, 9

Fisher v. Illinois,

540 U.S. 544, 124 S.Ct. 1200,
157 L.Ed.2d 1060 (2004) . . . . . . . . . . . . . . . . . . . . . . .

Little v. State,

991 S.W.2d 804, 866 (Tex.Crim.App. 1999) . . . . . . . .

Napue v. Illinois,

360 U.S. 264, 269 (1959) . . . . . . . . . . . . . . . . . . . . . .

6, 9
6, 7
9

State v. Bell,

No. 06-19-00139-CR, 2020 Tex. App. LEXIS 227
2020 WL 111304 (Tex. App. –Texarkana (Jan. 10, 2020,
pet. denied) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .

State v. Morales,

232 Conn. 707, 722-727, 657 A.2d 585 (1995) . . . . .

United States v. Femia,

9 F.3d 990, 993 (1ST Cir. 1993) . . . . . . . . . . . . . . . . .

United States v. Gomez,

191 F3d 1214, 1218 (10th Cir. 1999) . . . . . . . . . . . . .

5
10
6, 7
6, 7

United States v. Valenzuela-Bernal,

458 U.S. 858, 870, 102 S.Ct. 3440,
73 L.Ed2d 1193 (1982) . . . . . . . . . . . . . . . . . . . . . . . .

9

5

INTRODUCTION

In 2006, C.M. was sixteen years old and lived with her mother in Paris, Texas in a house
next door to Billy John Bell (Bell), who was her step-grandfather. See App, 4a. In November of
2006, C.M. called the police and said that she did not feel safe at home alone because she had
“sexual issues” with Bell. See App, 4a. About one week after, C.M. moved to Dallas, where a
representative from Child Protective Services (CPS) asked C.M. about the allegations against
Bell. See App, 4a. The CPS representative recorded the interview, but “C.M. did not say
anything.” See App, 4a. After the interview, C.M. did not speak to law enforcement, and the case
was not prosecuted by the State of Texas (the State), at that time. See App, 5a.
In 2016, after a delayed outcry, a grand jury in Texas returned an indictment that named
C.M. as the victim and charged Bell with three counts of aggravated sexual assault of a child and
one count of indecency with a child. See App, 2a. Pre-trial, Bell issued a subpoena to CPS seeking
records about C.M.’s allegations in 2006 and, when CPS could not produce any records from its
investigation, Bell moved to dismiss the indictment on due-process grounds. See App, 4a. After
a hearing, the trial court granted Bell’s motion to dismiss (App, 6a) and entered findings of fact
and conclusions of law. See App, 6a-8a.
On appeal, the State contended that the trial court erred because Bell did not show that the
State acted in bad faith. See App, 3a. In agreement, the intermediate Court of Appeals reversed
the trial court’s order dismissing the indictment and remanded for further proceedings. See State
v. Bell, No. 06-19-00139-CR, 2020 Tex. App. LEXIS 227, 2020 WL 111304 (Tex. App.—
Texarkana (Jan. 10, 2020, pet. denied) (mem. op., not designated for publication). The Court of
Appeals denied Bell’s motion for rehearing, and the Texas Court of Criminal Appeals denied his
petition for review.
By filing his petition for writ of certiorari, Bell now seeks review in this Court. On January
11th, this Court requested a response, and the State respectfully submits this brief in opposition to
Bell’s petition for writ of certiorari.

STATEMENT OF THE CASE
At no time during the pendency of the factual allegations against Bell did the
State destroy the CPS records in a calculated effort to circumvent the requirements
of Brady v. Maryland, 373 U.S. 83, 87, 83 S. Ct. 1194, 10 L. Ed. 2d 215 (1963). Rather,
Bell’s case is one in which the government no longer possessed the disputed evidence,
and is governed by Arizona v. Youngblood, 488 U.S. 51, 102 L. Ed. 2d 281, 109 S. Ct.
333 (1988) and California v. Trombetta, 467 U.S. 479, 81 L. Ed. 2d 413, 104 S. Ct.
2528 (1984).

6

REASONS TO DENY THE PETITION
I.

The factual circumstances of Bell’s case do not involve “materially
exculpatory” evidence under Brady and do not justify a departure from
the defendant’s burden of showing bad faith under Fisher, Youngblood
or Trombetta because the disputed evidence was, at best, “potentially
useful” and the Texas appellate court reasonably concluded that there
was no finding in the trial court, and no evidence in this appellate
record, that the government was aware of the contents of the disputed
evidence (CPS records) before they were destroyed, or that any
exculpatory value of the records was apparent before they were
destroyed under a document retention schedule.

A.

Due Process: Constitutionally Guaranteed Access to Evidence.

Under the Due Process Clause of the Fourteenth Amendment, criminal
prosecutions must comport with prevailing notions of fundamental fairness. See
California v. Trombetta, 467 U.S. 479, 485, 104 S.Ct. 2528, 118 L.Ed.2d 413 (1984).
This Court has long interpreted this standard of fairness to require that criminal
defendants be afforded a meaningful opportunity to present a complete defense. See
id. To safeguard that right, this Court has developed “what might loosely be called
the area of constitutionally guaranteed access to evidence.” See id.
This Court’s jurisprudence divides cases involving nondisclosure of evidence
into two distinct areas: (1) Brady and its progeny address exculpatory evidence still
in the government’s possession, and (2) Youngblood and Trombetta “govern cases in
which the government no longer possesses the disputed evidence.” See United States
v. Gomez, 191 F.3d 1214, 1218 (10th Cir. 1999); United States v. Femia, 9 F.3d 990,
993 (1st Cir. 1993); Little v. State, 991 S.W.2d 864, 866 (Tex. Crim. App. 1999).
1.
The Disputed Evidence in Bell’s Case Was No Longer in the
Government’s Possession.
“The Due Process Clause of the Fourteenth Amendment, as interpreted in
Brady, makes the good or bad faith of the State irrelevant when the State fails to
disclose to the defendant material exculpatory evidence.” See Youngblood, 488 U.S.
at 57. But, the Due Process Clause requires a different result when dealing “with the
failure of the State to preserve evidentiary material of which no more can be said
than that it could have been subjected to tests, the results of which might have
exonerated the defendant.” See id.

7

Unquestionably here, Bell’s case involved the failure of the State to preserve
evidentiary material, as the trial court found that “the records from 2006 had been
retained for five years in the CPS system and then destroyed in conformity with the
CPS retention schedule.” See App, 7a (finding of fact # 12). So, the disputed evidence
was no longer in the government’s possession.
2.

Bell’s Case Is Governed by Youngblood and Trombetta.

Because the State no longer possesses the disputed evidence (CPS records),
Bell’s case belongs in the area of jurisprudence that is governed by Youngblood and
Trombetta. See Gomez, 191 F.3d at 1218; Femia, 9 F.3d at 993; Little, 991 S.W.2d at
866.
a.
Trombetta: The Due Process Clause Did Not Require Preservation of
Breath Samples.
In Trombetta, the question was raised as to whether the Fourteenth
Amendment demanded that the State preserve potentially exculpatory evidence on
behalf of defendants. See Trombetta, 467 U.S. at 480. In particular, the question
presented was whether the Due Process Clause required law enforcement agencies to
preserve breath samples of suspected drunken drivers in order for the results of
breath-analysis tests to be admissible in criminal prosecutions. See id at 481.
Factually, the respondents were stopped on suspicion of drunken driving on
California highways, and each respondent submitted to an Intoxilyzer test. See id at
482. Pre-trial, each respondent filed a motion to suppress the Intoxilyzer test results
on the ground that the arresting officers had failed to preserve samples of
respondents’ breath. See id. Although preservation of breath samples was
technically feasible, California law enforcement officers did not ordinarily preserve
breath samples, and made no effort to do so. See id at 482-83. All of respondents’
motions to suppress were denied, and were convicted. See id at 483. The California
Court of Appeal ruled in favor of respondents by granting new trials and by ordering
that the Intoxilyzer results not be admitted as evidence against the other two
respondents. See id at 484. The State unsuccessfully petitioned for certiorari in the
California Supreme Court. See id. This Court granted certiorari, see id, and reversed
for the following reasons:
(1)
To begin with, California authorities did not destroy respondents’ breath
samples in a calculated effort to circumvent the disclosure requirements established
by Brady v. Maryland and its progeny. See Trombetta, 467 U.S. at 488. In failing to
preserve breath samples for respondents, the officers here were acting “in good faith
and in accord with their normal practice.” See id. The record contained no allegation
of official animus towards respondents or of a conscious effort to suppress exculpatory
evidence. See id.
(2)
In Trombetta, this Court further held that to meet a standard of
“constitutional materiality,” evidence must both possess an exculpatory value that
was apparent before the evidence was destroyed, and be of such a nature that the

8

defendant would be unable to obtain comparable evidence by other reasonably
available means. See id at 489. This Court reasoned that although the preservation
of breath samples might conceivably have contributed to respondents’ defenses, a
dispassionate review of the Intoxilyzer and the California testing procedures could
only lead one to conclude that the chances were extremely low that preserved samples
would have been exculpatory. See id.
(3)
Finally, this Court held in Trombetta that even if one were to assume
that the Intoxilyzer results were inaccurate and that breath samples might therefore
have been exculpatory, it did not follow that respondents were without alternative
means of demonstrating their innocence. See id at 490. There were only a limited
number of ways in which an Intoxilyzer might malfunction, and the respondents
could raise these issues on cross-examination. See id; see also Ex parte Napper, 322
S.W. 3d 202, 230 (Tex. Crim. App. 2010).
b.
Youngblood: Unless a Criminal Defendant Can Show Bad Faith,
Failure to Preserve Potentially Useful Evidence Does Not Constitute a Denial of Due
Process.
In Youngblood, the State of Arizona indicted Larry Youngblood on charges of
child molestation, sexual assault, and kidnaping. See Youngblood, 488 U.S. at 52,
53. The jury found respondent guilty as charged, but the Arizona Court of Appeals
reversed the judgment of conviction. See id at 54. The Supreme Court of Arizona
denied the State’s petition for review. See id at 55. This Court granted certiorari,
see id, to consider the extent to which the Due Process Clause of the Fourteenth
Amendment required the State to preserve evidentiary material that might be useful
to a criminal defendant. See id at 52.
In Youngblood, this Court held that the Due Process Clause required a
different result when dealing with the failure of the State to preserve evidentiary
material of which no more can be said than that it could have been subjected to tests,
the results of which might have exonerated the defendant. See id at 57. Part of the
reason for the difference in treatment was found in the observation by this Court in
Trombetta that “[w]henever potentially exculpatory evidence is permanently lost,
courts face the treacherous task of divining the import of materials whose contents
are unknown and, very often, disputed.” See id at 57-58. Part of it stems from this
Court’s unwillingness to read the “fundamental fairness” requirement of the Due
Process Clause as imposing on the police an undifferentiated and absolute duty to
retain and to preserve all material that might be of conceivable evidentiary
significance in a particular prosecution. See id at 58.
In Youngblood, this Court reasoned that requiring a defendant to show bad
faith on the part of the police both limited the extent of the police’s obligation to
preserve evidence to reasonable bounds and confined it to that class of cases where
the interests of justice most clearly require it, i.e., those cases in which the police
themselves by their conduct indicate that the evidence could form a basis for
exonerating the defendant. See id. Therefore, this Court held that “unless a criminal

9

defendant can show bad faith on the part of the police, failure to preserve potentially
useful evidence does not constitute a denial of due process of law.” See id. Finally,
this Court mentioned that “[t]he presence or absence of bad faith by the police for
purposes of the Due Process Clause must necessarily turn on the police’s knowledge
of the exculpatory value of the evidence at the time it was lost or destroyed.” See id
at 56, n. (citing Napue v. Illinois, 360 U.S. 264, 269 (1959)); see also Napper, 322
S.W.3d at 230.
c.
After Youngblood, this Court Decided Fisher v. Illinois, 540 U.S. 544,
124 S.Ct. 1200, 157 L.Ed.2d 1060 (2004).
In Fisher the Appellate Court of Illinois held that the Fourteenth
Amendment’s Due Process Clause required the dismissal of criminal charges because
the police, acting in good faith and according to normal police procedures, destroyed
evidence that respondent had requested more than 10 years earlier in a discovery
motion. See Fisher, 540 U.S. at 545. In Fisher, the State of Illinois contended that
such a result was foreclosed by the decision in Youngblood and, in agreement, this
Court granted the petition for certiorari and reversed the judgment of the Appellate
Court. See id.
In Fisher, this Court resolved that the substance seized from the respondent
was plainly the sort of “potentially useful evidence” referred to in Youngblood, not the
material exculpatory evidence addressed in Brady. See Fisher, 540 U.S. at 548. In
Fisher, this Court explained that the applicability of the bad-faith requirement in
Youngblood depended not on the centrality of the contested evidence to the
prosecution’s case or the defendant’s defense, but on the distinction between
“material exculpatory” evidence and “potentially useful” evidence. See id at 549. In
Fisher, the destroyed substance was, at best, “potentially useful” evidence; and
therefore, the bad-faith requirement in Youngblood applied. See Fisher, 540 U.S. at
549; see also Napper, 322 S.W.3d at 230-31.
B.
Bell’s Case Does Not Justify a Departure from the Bad-Faith
Requirement.
1.

Bell’s Case Does Not Justify a Departure for Several Reasons.

In his petition, Bell contended that the Fisher reasoning “would place the
destroyed evidence at issue here in a category far removed from the fifth lab test on
an already confirmed controlled substance.”
P. 13.
First, however, Bell’s
characterization of “far removed” does not justify a further revision and/or a different
clarification of “potentially useful” evidence because courts would then “face the
treacherous task of divining the import of materials whose contents are unknown
and, very often, disputed.” See Youngblood, 488 U.S. at 58; Trombetta, 467 U.S. at
486 (citing United States v. Valenzuela-Bernal, 458 U.S. 858, 870, 102 S.Ct. 3440, 73
L.Ed.2d 1193 (1982)).
Second, this Court has been unwilling to read the “fundamental fairness”
requirement of the Due Process Clause as imposing on the police an undifferentiated

10

and absolute duty to retain and to preserve all material that might be of conceivable
evidentiary significance in a particular prosecution. See Youngblood, 488 U.S. at 58.
Third, as was the case in Trombetta, the appellate record here contained no
evidence of official animus towards Bell, or of a conscious effort to suppress
exculpatory evidence. See Trombetta, 467 U.S. at 488. Finally, Bell’s petition heavily
emphasized CPS’s finding of a “reason not to believe” the victim (C.M.) along with the
trial court’s conclusion of law regarding the “reason not to believe.” See App, 7a-8a
(conclusions of law # 5, # 6 and # 13).
However, Bell could still raise that issue on cross-examination. See id at 490
(there were only a limited number of ways in which an Intoxilyzer might malfunction,
and the respondents could raise these issues on cross-examination.). Here, the
intermediate appellate court reasoned that Bell was able to solicit testimony from a
live witness during the pre-trial hearing that CPS’s destruction of its records after
five years indicated that it had made a “reason not to believe” finding. See App, 14a.
Thus, on remand to the trial court, Bell would still be able to subpoena that witness
at the time of trial or offer that testimony from the hearing on March 19, 2019. Either
way, Bell would be able to obtain comparable evidence of CPS’s finding “by other
means.” See App, 14a (citing Trombetta, 467 U.S. at 488-89).
Despite Bell’s “far removed” characterization, the evidence at issue here
correctly fell in the category of “potentially useful” evidence and, therefore,
Youngblood’s bad-faith requirement applied. See Fisher, 540 U.S. at 549. Because a
further revision and/or a different clarification of “potentially useful” evidence is
unwarranted, Bell’s case does not justify a departure from the bad-faith requirement,
and this Court should deny the petition.
2.
This Court Has Never Adopted the “Totality of Circumstances” Test,
Leaving that Approach to Courts Interpreting State Constitutions.
In his petition, Bell also suggested a different “methodology” and alleged that
“an analysis of the totality of the circumstances is appropriate.” P. 13. However, this
Court has never adopted the “totality of the circumstances” test, leaving that
approach to state courts interpreting their respective Constitutions. See, e.g., State
v. Morales, 232 Conn. 707, 722-727, 657 A.2d 585 (1995). Because the adoption of
any “totality of the circumstances” test is best left to the decisions by state courts,
this Court should deny the petition.

11

CONCLUSION
The petition for writ of certiorari should be DENIED.
Respectfully submitted,
Gary D. Young, County & District Attorney
Lamar County and District Attorney’s Office
119 North Main Street
Paris, TX 75460
(903) 737-2458
gyoung@co.lamar.tx.us
and
Jeffrey W. Shell, Attorney Pro Tem
State of Texas Bar No. 18191660
Rockwall County District Attorney’s Office
1111 E. Yellowjacket Lane, Suite 201
Rockwall, TX 75087-4901
(214) 244-8480
jshell@rockwallcountytexas.com
jws0566@yahoo.com
COUNSEL OF RECORD*

*As submitted, Jeffrey W. Shell’s application for admission awaits approval.

